CERTIFICATE OF SERVICE
DECLARATION IN COMPLIANCE WITH 28 U. S. C. ยง 1746
I, Ivan Vetcher, Pursuant to 28 U. S. C. ยง 1746 state that on September 13,
2021 I forwarded the an electronic copy of the document to my proxy in the
US for mailing through United States Postal service, first class postage
prepaid, to the following addresses:
Mailing Address of the Solicitor General of the
United States (see Rule 29.4)
Room 5616
Department of Justice
950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

Respectfully Submitted,
September 13. 2021
Date

20

/s/Ivan Vetcher
Ivan A. Vetcher
ivanvetcher@gmail.com
4100 Silverthorne St.
Richardson, TX 75082

